                                                                 -
                               NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTOR GENERAL




      MEMO TO: File

     FROM:            S    A     -      ~

     DATE:            March 30,200 1
     SUBJECT: Case C~oseout,*~@~@~~$"
                          sv l>-<5,.::p:'.,. :.!>-i...:.
                                                      .-
                                                         j




                                                -
                                       ,,:,,




     1.      In July of 1998 an allegation was received that
             Professor, Department of Renewable Resources
                                                     -
             received duplicate travel expenses and claimed  per diem expenses that
             were paid by NSF and th " '                         The Ofice of Inspector
             General, National Science Foundation (OIG-NSF) investigated the
             allegations.

     2.      The investigation revealed that          improperly received
             reimbursement for travel expenses from two organizations when those
             expenses had already been paid through NSF grants.


     3.      The case was presented for prosecution to the United States Attorney's'
             Office, District of-           which accepted the case. p l e d guilty
             to one count Theft of Government Property, in violation of Title 18 USC 9
             641;Sentencing took place on April 4,2001, in the United States District
             Court, District of           -as          ordered to pay in full
             immediately a $25.00 assessment fee, $225.70 restitution, and a $1000.00
             fine.

    4.       This investigation is closed and no further action is being taken by OIG at
             this time.




     (703) 306-2100   OIG Anonymous Hotline (800) 428-2189       http://www.ndgov/oig/oig
                             Electronic mail hotline: oig@nsf.gov
                                          -.




                             NATIONAL SCIENCE FOUNDATION
                                  4201 WILSON BOULEVARD
                                 ARLINGTON, VIRGINIA 22230




                                          December 22,1999
    OmCEOF
INSPECTORGENERAL                     'b




  Assistant United States Attorney

  Cheyenne, e - 8 2 0 0 3

  Re: Report of Investigation for suki

 IL- -.-- -
 Pursuant to our discussion on Tuesday, December 21, 1999, we are providing a copy of
 our report of investigation and supporting attachments relati, ,, ,-. ,,--    ,..       We
        c-
                                                                             -

 found      -            ;barged federal grants for more than $1500 in travel expenses that
 were reimbursed or paid directly by another organization. Howev~,,- - . _ _ _ r has
 reimbursed his current federal grant for a total of $1475.75.

 We request that you review this report to determine what actions, if any, your office
 should pursue, and advise us on your proposed course of action.

 If you have any further questions, please feel free to contact me pi

                                               Sincerely,
                             -I




                                               Inspector General
                                 Confidential




                National Science Foundation
                Office of Inspector General
                       Report of Tnvesti~atinn#T981)7001 5
                          Subje
                                  December 2 1, 1YYY




National Science Foundation
420 1 Wilson Blvd., Suite 1135
Arlington, VA 22230
(703)306-2001
-*
                                                                              Report of Investieation #I98070015

5
     L         Introduction

D    ha'
            Based on the evidence gathered during this investigation, we have determined
              -
                           --
                              , Professor in the Department of Renewable Resources at
          - ---, - -            charged National Science Foundation (NSF)grants1for the
                       ,- ---__,,
     payment
     -
                of travel expenses that were already reimbursed by other organizations. Overall,
                   received duplicate or overlapping reimbursement for four tips totaling
     $1,701.45.

     L         Basis for Investi~ation

             In July of 1998, we received an allegation tha               received and kept
     reimbursement from another organization for travel expenses that had been charged to an
     NSF grant. It was also alleged thaLI - . .. --_   iaimed full per-diem for field days spent
     at the Toolik Lake Field Station in Alaska although lodging and meals at Toolik Lake
     were ooveied by a separate NSF agreement with the Polar Ice Coring Office (PICO)
     operated by the



               A. National Science Foundation


8
             NSF is an independent federal agency created in 1950 to support research and
     education activities in science and engineering. Annually, NSF provides nearly $4 billion
     to support more than 20,000 awards. Through its Office of Polar Programs, NSF provides
     funding for projects that emphasize understanding of the adaptation of organisms to the
     arctic environment, including studies in ecosystem structure and processes.



               Thr                             , located in Laramie, Wyoming, offers a variety of
     undergraduate and graduate degrees in its seven colleges. The College of Agriculture
     houses the Department of Renewable Resources (the Department), a multidisciplinary
     department with faculty in insect science, rangeland ecology, soil science and watershed
     management that offers programs leading to the degrees of Bachelor of Science, Master of
     Science, and Doctor of Philosophy. NSF has awarded numerous grants to th-



     'In September 1996,the                          was awarded a $412,238 NSF grant
     entitled,
                              :he Principal Investigator on this grant which expires August 3 1,2001. In July
     1994, (                                               us employer, was awarded a $410,370 NSF grant
                     ntitled, "
                                                     vas the Principal Investigator on this grant which expired
     December 19,1996.
                                                                                      Report of Investigation #I98070015   1
                           .-

    III. Investi~ativeFindin~rs
                                i




            . .
                          "X"


                                i:
                                     .   .   mvro~erlvreceived reimbursement for travel expenses from three

                                -
            In ~ G e m b e 1996,
                             r     the Department charged $459 to the NSF award (OPP-
    - . .      forIairline tickets to Santa Barbara, Ca1ifornia.r          vas designated as
    the travker. :In December 1996, the                                            and
                                                                          -   -   .     .   a   .

                                                                                                         '


                           in Santa Barbara, California, paic -        ';701, including $459
    c&ed for & cosi of round trip airfare from Laramie, Wyoming, to Santa Barbara,
    California mable 1).
                           k
                      Table 1- Santa Barbara Trip (1212 - 12/10, 1996)
    Paid by NCEAS                                 ChargeC - - _ _   - - -                            .


    Airfare     -               $459              Airfare                                                        $459
    $37 per diexi 6.54 days     $242                                                                         .
    Duplicate Reimbursement: $459

              In September 1997, the Department charged $683' to the NSF award for airline
    tickets to Tucson, Arizona or                  behalf. In October 1997          paid
     .. ------ $1,032, including $673 claimed for the cost of roundtrip airfare from Denver,
    Colorado to Tucson, Arizona. The number on the airline ticket submitted to               nd
0   the ticket number listed on the interdepartmental transfer that was used to charge the
    NSF grant were identical.,
                                 I
                                             also received $343.75 from the
    ....         as reimbursement for 5.75 days of full per diem even thougl          2imbursed
    him for his lodging and some of his meals (Table 2).

                         Table 2 - Tucson Trit, (10/11- 10/16, 1997)
                      -     -
    Paid by                                         Charged tc
    Airfare                       $673             Airfare                              $683
    Lodging for 3 nights         $2 18             $60 per diem for 5.75 days (for lodging, meals,
    Meals                        $ 21              and gratuities)                      $343.75
    (note: additional meals, lunch and dinner on
    10115 and on 10116 were provided directly to
    workshop participants)
    Taxi                         $ 30
              -
     - ----
    Mileage RT home to Denver (300 miles at        Mileage - 2 RTs Centennial, WY to Fort
    s.30)                        $ 90              Collins, CO on 10/7 & 10/9 1997 (264 at $28)
                                                                                        $ 73.92
    Duplicate reimbursement: $1,016.75 ($673 airfare & $343.75 per diem reimbursed



     S673 for the ticket and $10 for a travel agency service charge.
i
    .-&

                                                                                       Rewrt of Investigation #I98070015
    &
    h




    B                               --   -.
                                  .Ilso received overlapping reimbursements for two trips during the
              period he was a professor a/                          . .    . In February 1995, the
              -                        -.
                                              ~fthe United States            .        00th paid expenses
              associated wit+- -             attendance at a workshop heli in Bodega Bay, California
              -
              (Table 3). &pin, in October 1995, -
                   --I
                                                                      both paid expenses associated with
                         ' ;attendance at a workshop in Tucson, Arizona (Table 4).
                         I
                         .




                                                                                   -
                                              Table 3 - Bodega Bay Trip (2115 2/19, 1995)
              paid b3) - .-                                              Charged tc
              AirfSre (paid d i r e c t l y ~ -       $284
              Lodging (paid directly by            , $ 41
              Food (paid directly by            - three meals               $38 per diem for 5 days            $190
              on 2/16,2/17,2/18 and breakfast on 2/19)
                                                      $100
              $34per diem f& 1day                     $ 34
              Shuttle                                 $ 22                  Taxi                              $ 10
              Overlav~invReimbursement: $190

          r                  . --   -
                                              Table 4 - Tucson ~d~ (10121 - 10125, 1995)
              Paid by                                                       Charged to
          . Airfare (paid directly b$            $253
              $34 per diem for 2.5 days*         $ 85                       $30 per diem for 3.55 days         $106.55
              *The 2.5 days were broken down as follows:
              10/21 %-day; 10/23 %-day; 10/24%-day; 10/25
              %-day.
                                                                        I
                                                                            3 nights lodging                  $183.64
                                                                            Shuttle                           $ 28
                                                                            Taxi                              $ 10
                                                        Supplies                                              $ 30
              Overlavvin~Reimbursement: $35.70 (1.05 duplicate days X $34                          -    -   - ser diem)
                                                           - ----
                     Prior to visiting                          ve reviewed.            grant travel
              expenditures from June 1994 through June 1998 and found no additional instances of
              duplicate travel. In July 1999, we interviewed,            about the above described
              instances. He stated that after reviewing the travel voucher he submitted to the
                               ,-      n connection with the October 1997 workshop in Tucson,
                                               v


              Arizona, he discovered that he was overpaid.fortravel expenses in the amount of $343.75
              because the meeting sponsors covered the cost of attending the ~onference.~  He stated


                            provided a written statement to SI       stating that he reviewed the travel voucher for the
              October 1997 workshop after he spoke with                     from           July8, 1999, and discovered
              that he was overpaid for aavel expenses in the amount of $343.75. This amount represents per diem only.
                                                                          Remrt of Investieation #I98070015


 that he already reimbursed the grant for this amount. He also acknowledged that he
 received the duplicate reimbursement for his airfare when he attended the workshops in
 Santa Barbara and Tucson (1997), but stated that he did not know why the two airfares
 were charged to his NSF grant and did not do this deliberately. He claimed that he did
 not recall the circumstances surrounding the two earlier mps and did not provide any
 explanation for the overlapping reimbursements. We also interviewed -
 postdoctoral assistants4and the Department office associate5who indicated that they
 were not aware d,, -             ver received duplicate reimbursements for travel.

          -   - . .. ----- and his ~ostdoctoralassistants im~roperlvclaimed Der diem while
              at ibolik Lake Field Station instead of itemizing ~urchasesfor sup~liesand
              materials.

                      and his postdoctoral assistants reported in interviews that when they
went to Toolik Lake, Alaska they were often required to purchase equipment and supplies
for use in their field work. When they returned fiom Alaska, they were instructed to
report theu total expenditures to the Department office associate who would use this
figure to calculate the number of days of per diem to claim (this practice is hereinafter
referred to as "the lumping methodn). The postdoctoral assistants indicated that under
the lumping method of completing travel vouchers, receipts were not attached to travel
vouchers, but they retained the receipts because they were not comfortable with this
method. The lumping method was adopted to speed up voucher processing. However, it
gave the appearance that full per diem was being provided to individuals who had all or
part of their Living expenses paid for while at Toolik Lake. It also resulted in the
misclassification of supplies and equipment expenses and created the opportunity for
individuals to obtain reimbursement for expenses they did not incur.

        In July 1999, we reviewec - -          ravel expenditures for July 1998 through
June 1999. In March 1999, The university reimbursec                $733.75 for travel to
Seattle, Washmgton and Alaska. This included full per diem for four days spent at the
Toolik Lake Field Station. At our requc .             -,rovided a summary of
expenditures incurred during this nip. He did not have the original receipts but provided
an American Express statement and a summary of meaUfood expenses. The American
Express statement-showedcharges of $83.99 for merchandise from Fred Meyer stores6and

      J
      , not reimburse               per diem but he stated that it had covered his expenses. See
Attachment 1.
                           ~videda written statement to SA          stating that she was not aware of anyone
receiving duplicate reimbursemen6 for their official travel.                      did not provide a
statement but indicated in the interview that he was not aware of anyone receiving duplicate
reimbursementsfor their official travel. See Attachments 2 and 3.
                   J not provide a written statement to St"        but indicated in interviews that she was
not aware that anyone in the department had received duplicate reimbursements for their official travel.
            -- 4.
See attachment   .
                   4merican Express statement, there were two charges to Fred Meyer in Fairbanks, Alaska.
An email from                tdicates that $107.43 was for food and $83.99 was for the purchase of snow
boots. See Amchment 5.
-1
       $175 for the rental of a satellite phone, non-travel expenses. While these latter

D      expenditures were misclassified as travel, the total amount reimbursed was consistent with
       the information provided b!

                t                            9uld improve its travel accounting procedures to
                    prevent individuals from obtaining du~licatereimbursement for some travel
                    emnses.
                                                - -
               The                            ravel Regulation7specifically states that "double
       payments for University travel are prohibited." We found that this policy was readily
       available in the Department of Renewable Resources althougf                 stated that he
       had not read it. The Travel Regulation does not specifically state whether or not an
       individual can claim per diem when his or her food andlor lodging are provided by a non-
       state entity. However, we believe that this would fall under the prohibition against
       double reimbursement for travel.

               We suggested to university administrative personnel that the university require
       employees whose tickets are purchased by the university to submit the original ticket
       receipt with their travel voucher. This would reduce the likelihood that the same ticket
       receipt could be used to obtain reimbursement from another organization. We also
       suggested that the university update its travel regulation to specifically address claims for
       per diem when food and/or lodging is provided by another organization.

rn     W.      Allwed Violations of Civil and Criminal Law
                                                                                            .   -
                           mproperly charged $1,475.75 to NSF grant                a   for travel
      expenses that were reimbursed or paid directly by another organization. He also charged
      $225.70 to NSF grant              .- for expenses that were partially reimbursed or paid
                                               -I


      by another organization. These actions may be in violation of the civil False Claims Act,
      3 1 U.S.C. 5 3729 et seq., and 18 U.S.C. 9 287, False, Fictitious or Fraudulent Claims.
                                                                                                          I
               A. mi tie at in^ Circumstances

       1:           &eimbursedthe NSF grant for a total of $1,475.75. We verified tha*
                aeimbursed the NSF grant for $343.75 after he discovered that he had been
        overpaid in connection with the October 1997 workshop in Tucson, Arizona. He also

               -
        reimbursed the grant $1,132' for the duplicate airfare reimbursements associated with
     3~ the November 1996 t i p to Santa Barbara, California and the October 1997 workshop
     7@ in Tucson, Arizona.



      ' University Regulation 177, Revision 7, August 3, 1998. See Attachment 6.
                    nade two separate payments, $459 on July 20, 1999, and $673 on August 19, 1999. See
B     Attachment 7.
    . \.
           2. Based on our review of selected grant payments, we found no evidence that any other
    D         improper expenditures had been charged to              grants.

           3. The Department of Renewable Resources at the                                          - agreed to
              cease using the lumping method when processing travel vouchers.
                                    - ---
           4. The                          agreed to require employees to submit ticket receipts with
              their travel vouchers, and to re-communicate its policy against claiming per diem
              when lodging and meals are provided by another organization.

                   B. Aggravating Circumstances

           1. The original source of the allegationgindicated that          icnowingly accepted
              and kept reimbursement for expenses that had already been charged to the NSF
              grant*

           2.                obtained duplicate or overlapping reimbursements on at Ieast four
I
                occasions.




           ' O n July 28, 19,- --.-.                       merly a postdoctoral fellow at the                      a*    I
           signed an affidavit alleging that he had witnesse6               ceive duplicate reimbursement from his       I
           NSF grants when he had previously charged those expenses to another institution or funding source. At         b
           the time he signed this affidavithe asked to be treated as a confidential source. We subsequently contacted   1
           him and tie indicated that he would like to maintain his confidential source status.                          j
